No. 20-1247
IN THE

Oupreme Court of t!je

Otateo

GERALD DIX,
Petitioner,
v.
EDELMAN FINANCIAL SERVICES, LLC, ET AL.,
Respondents.

On Petition For A Writ Of Certiorari
To The United States Court of Appeals
For the Seventh Circuit
SUPPLEMENTAL BRIEF OF PETITIONER

Gerald Dix, pro se
P. 0. Box 2043
Bridgeview, IL 60455
(630) 452-0134
gdix3@hotmail.com

TABLE OF CONTENTS
1

ARGUMENT
This instant case provides a saner forum to
resolve warrantless civil seizure in the home
For State Actors, the "Community
Caretaking" Doctrine is the Ideal Pretext
to Invidious Fourth Amendment Violations
in the Home.
CONCLUSION

2

3
8

TABLE OF AUTHORITIES
Page(s)
Caniglia v. Strom
396 F. Supp. 3d 227 (D.R.I. 2019)
Dix v. Edelman Financial Services, LLC,
978 F.3d 507 (7th Cir. 2020)
New Motor Vehicle Bd. of Cal. v. Orrin W. Fox Co.,
439 U.S. 96, 109 (1978)
People v. Evans,
516 N.E.2d 817 (1987)
People v. Taylor,
2019 IL App (1st) 150628-U
Soldal v. Cook County,
506 U.S. 56 (1992)

2
1
7
6

2

CONSTITUTIONAL AND STATUTORY AUTHORITIES
735 ILCS 5/9-101

2

735 ILCS 5/13-217

3

U.S. Const., amend IV

1, 2, 3, 7

1
ARGUMENT
The Petitioner files this supplemental brief
pursuant to Rule 15.8 of the Rules of this Court, to
bring to the Court's attention the misrepresentations
and omissions regarding this instant case by the
parties in Caniglia v. Strom (No: 20-157). While the
Petitioner was aware of Caniglia when he filed his
petition, he was completely unaware that his
complaint was misrepresented by the attorney, Marc
DeSisto in his supplemental brief of the respondent,
Robert Strom filed on October 27, 2020. The Petitioner
has reviewed the pleadings and oral arguments in
Caniglia and finds that this Court would benefit by
reviewing the actual facts in this case before deciding
whether the "community caretaking" exception to the
Fourth Amendment's warrant requirement extends to
the home. To support his position, Strom is relying on
this instant case, specifically, the Seventh Circuit's
opinion that even if there was a seizure of Mr. Dix
during an eviction, it was reasonable based on the
"community caretaking" doctrine available to• police
officers. See Dix v. Edelman Fin. Servs., 978 F.3d 507,
517 (7th Cir. 2020). In this instant case, Mr. Dix was
forcibly removed from his home and had some of his
property seized by the Lisle police for purely financial
reasons and the "community caretaking" function is
merely a pretext to the unlawful, even criminal acts
committed by the Lisle police. By reviewing this case,
the Court will have a more suitable and much needed
forum to help answer this important question which
will have an enormous impact on Fourth Amendment
rights which make the American home sacrosanct.

2

I. This instant case provides a saner forum
to resolve warrantless civil seizure in the
home.
In citing Dix in his supplemental brief, Strom
deliberately omitted pertinent facts in this
Petitioner's complaint which is primarily based on an
illegal eviction performed by police in contravention of
clearly established law — the Illinois Forcible Entry
and Detainer Statute (735 ILCS 5/9-101) and this
Court's nearly thirty-year precedent, Soldal v. Cook
County, 506 U.S. 56 (1992) meant to protect Fourth
Amendment rights of a home's occupants. (Dix Pet.
p.1). In Dix, there were no weapons displayed or any
threats or any allegations of threats or arguments
between the roommates while the Lisle police illegally
evicted Mr. Dix. However, according to Caniglia v.
Strom, 396 F. Supp. 3d 227, 230 (D.R.I. 2019), Edward
Caniglia placed a gun on a table during a verbal
disagreement and invited his wife to shoot him and
told her to "get me out of my misery." When Theresa
Miller unsuccessfully attempted to unlawfully evict
Mr. Dix from their home the night of August 23, 2017,
nothing he said or did caused Ms. Miller to vacate her
domicile and seek temporary shelter elsewhere.
Rather, Mr. Dix and Ms. Miller returned to their home
after the Lisle police left and remained civil to each
other. In Caniglia at 230-31, the wife, Kim Caniglia
after hiding the handgun and magazine, was upset
enough with her husband's behavior that she sought
refuge at a hotel rather than continue fighting with
her husband. While the police eventually returned
Mr. Caniglia's gun, something they should not have
done given his reckless behavior, Ms. Miller and the

3

Lisle police have refused to return Mr. Dix's property
to him and even donated his pickup truck without his
authorization.
Edward Caniglia recklessly used a gun like he
was in a John Wayne movie. The pilgrim caused a lot
of trouble and might have gotten somebody killed and
his behavior rightfully invoked the interests of local
law enforcement. To the contrary, the seizure of Mr.
Dix's person and property were clear Fourth
Amendment violations and demonstrates the need to
disallow applying the "community caretaking'
doctrine to the home.
II. For State Actors, the "Community
Caretaking" Doctrine is the Ideal Pretext
to Invidious Fourth Amendment
Violations in the Home..
Strom made an outright false statement. that,
"All [of Dix's] claims were dismissed by the District
Court, including the Fourth Amendment claim." The
record is clear, Judge Norgle relinquished Mr. Dix's
state law claims and he was free to refile them in state
court (Dix App. p.30a). Mr. Dix duly notified the
circuit court that he reified his state law claims
pursuant to the Illinois Savings Statute (735 ILCS
5/13-217) but without competent jurisdiction, the
Seventh Circuit dismissed Mr. Dix's wrongful eviction
claim anyway. (Dix App. p.28a). Because the Lisle
defendants intend to use collateral estoppel to prevent
Mr. Dix from pursuing his wrongful eviction claim, he
sought and was granted a stay in his state court
proceedings pending the final outcome of his federal
complaint. (Dix Pet. p.2 n.1). By misrepresenting Dix,

4

Strom jeopardizes Mr. Dix's claims now before this
Court as well as his state law claims
In Dix, the Lisle police were only present to
breach a landlord-tenant relationship which was
conditioned by the landlord's realtor and the only
maniac with a gun was Lisle's Sergeant Tim Dempsey
(Dix Pet. p.5). Strom falsely claimed that, "Ms. Miller
decided it was time to move on, sell the house, and end
her relationship with Dix." However, the undisputed
facts confirm that Miller was not acting entirely on
her own volition, but she was forced to sell her home
because of the fiduciary misconduct of her financial
advisor and she offered Mr. Dix continued tenancy in
her mother's two-flat with an agreement similar to
their arrangement in the Lisle home. (Id. p.5, 7).
Strom also falsely claimed that in order to forcibly
remove Mr. Dix from his home, "[Miller] had to seek
the help of the local police department." To remove
Mr. Dix against his will, all Ms. Miller had to do was
obtain an order for eviction from a DuPage County
judge through a Forcible Entry and Detainer action
which the Lisle police advised her to do. (Id. p.4-5).
Strom also falsely claimed that "[e]ventually Dix
agreed to leave and the other officers supervised his
move from the property." Mr. Dix never agreed to give
up his occupancy of Miller's house voluntarily and he
had projects with upcoming hard deadlines which
prevented him from performing any other duties
including moving from his abode which was known to
the Lisle police. (Id. p.5; Dix D.Ct.Dkt. 23 ¶¶119-21).
The Lisle police not only supervised Mr. Dix's eviction,
but they also took an active role by physically
restraining him preventing him from entering his own

5

house and entering the second and third floors. (Dix
Pet. p.5-6).
Like Kim Caniglia, Mr. Dix had to deal with a
clearly deranged person. However, Mr. Dix had to deal
with Sergeant Dempsey who was acting like a maniac,
screaming at him for no apparent reason and
preventing him from safeguarding his personal
property. (Dix Pet. p.19). After the illegal eviction,
Sergeant Dempsey made a false allegation that Mr.
Dix made a "bomb threat" on Edelman's corporate
headquarters and Sergeant Dempsey caused the City
of Wheaton to become involved by convincing one of
its police officers to telephone Mr. Dix and falsely
claim that he threatened Miller's realtor. (Id. p.8-9).
Strom reiterates the Seventh Circuit's
delusional and speculative claim that had the police
not been present, Ms. Miller and Mr. Dix would duke
it out. (Strom Rep. p.52). In reality, a physical fight
was only likely to occur between Mr. Dix and the Lisle
police, given Sergeant Dempsey's belligerence and the
use of physical force by Sommer. The Seventh Circuit
deceptively claimed that Mr. Dix caused the situation
to become deranged and that a "fracas" was unfolding
around them. Dix at 517. The Lisle police, themselves
caused the situation to become deranged and there
was no fracas between Mr. Dix and Ms. Miller in the
presence of the Lisle police and Sergeant Dempsey
was the only one screaming and yelling. To the
contrary, Mr. Dix was rather congenial to Ms. Miller
given the circumstances and in doing so was able to
negotiate an oral agreement favorable to him for
reimbursement of the cost of the moving van. (Dix Pet.
p.16-17).

6

The Lisle police had no more of a right to
forcibly remove Mr. Dix from his home than the
Cranston police had to help Kim Caniglia put her
husband, Edward "out of his misery." The Petitioner
makes light of the situation in Caniglia since Edward
did something incredibly stupid which would have
never been done by any responsible gun owner —
display a firearm during the course of a verbal
disagreement. These types of incidents generally
occur in the ghetto by young, inebriated individuals
without traditional parenting. i.e. See People v.
Taylor, 2019 IL App (1st) 150628-U ¶¶74, 87.
(Defendant who was raised in a series of group homes
used a weapon to settle what had been an alcoholfueled verbal argument.) Appallingly, even Caniglia
has decided that the Lisle police were justified in
evicting Dix because Miller requested it. (Caniglia.
Rep. p.14). Under Illinois law, Mr. Dix had a right to
remain in his home and it was not for the Lisle police
to decide if he was to be evicted. See People v. Evans,
516 N.E.2d 817, 819. Nonetheless, the "community
caretaking" exception applied to the home has already
advanced from police responding to a firearm placed
on a table in Caniglia to police unlawfully and forcibly
evicting a tenant in good standing because of an
unscrupulous and greedy real estate agent in Dix even
before this Court has had the final say. Mr. Dix
simply called a fraudster stupid because she was
carelessly handling his property, but because of this
single word rightfully uttered, the Seventh Circuit
and Strom now contend that the community
caretaking doctrine permits warrantless entry into
the home.

7

Even assuming that Mr. Dix had created a
fracas and called everyone present "stupid," he had a
right to do so as a form of protest against his eviction
done without judicial authority. "Court approval of an
eviction, for example, becomes necessary only when
the tenant protests his eviction, and he alone decides
whether he will protest." New Motor Vehicle Bd. of
Cal. v. Orrin W Fox Co., 439 U.S. 96, 109 (1978).
When the Seventh Circuit issued its opinion in
Dix, it was not relying entirely on the facts in that
case, but its panel members were motivated by
personal animosity toward Mr. Dix for several reasons
unrelated to the unlawful eviction. (Dix Pet. p.32).
Because of what Dix knows and to keep his silence, a
U.S. Marshal struck him in the back of his neck while
he was in the Everett McKinley Dirksen U.S.
Courthouse. Previous to that, U.S. Marshals had been
stalking Mr. Dix at his residence with the intent to
"beat him" to keep him silent. These U.S. Marshals
were acting under the extraneous direction of federal
judges in the Dirksen federal building. According to
Mr. Dix's anonymous source and his own attorney,
federal officials are involved with manufacturing false
criminal evidence against him to prevent his
testimony. (Dix Pet. p.23 n.3).
The Seventh Circuit's recent departure from its
previous stance on the "community caretaking"
doctrine applied to the home is unrelated to the actual
facts of Mr. Dix's unlawful eviction. It would be a
grievous error for this Court to rely on
misrepresentations by the Seventh Circuit, Strom and
Caniglia and will only foster egregious Fourth
Amendment violations obfuscated by fallacious claims

8

of protecting the health and safety of the community.
The Seventh Circuit's opinion in this case is nothing
more than a personal vendetta against Mr. Dix
himself and the attorney, Marc DeSisto became an
opportunist by further misrepresenting the facts in
Dix.
CONCLUSION
Petitioner respectfully requests that the
Petition for Certiorari be granted.
Respectfully Submitted,
Gerald Dix, pro se
P.O. Box 2043
Bridgeview, IL 60455
(630) 452-0134
gdix3@hotmail.com

